No. 20-6743

IN THE
SUPREME COURT OF THE UNITED STATES

NEIL DUSSARD, PETITIONER
~~
UNITED STATES OF AMERICA, RESPONDENT

CERTIFICATE OF WORD COUNT
NOW COMES Petitioner Neil Dussard, by and through his counsel, Devin McLaughlin,
Esq., of Langrock Sperry &Wool, LLP, and certifies the following:
The number of words in the Reply Brief is 2,779 as indicated by the word count
of the Microsoft Office 365 word processing system used to prepare the brief, and the number of
lines of text is 238 as indicated by the same system.
DATED at Middlebury, Vermont this 16th day of April, 2021.
LANGROCK SPERRY &WOOL, LLP

~j.

,=-" '"

~.._

Devin McLaughlin
PO Drawer 351, 111 S. Pleasant Street
Middlebury, VT 05753
(802) 388-6356
Attorneys for Petitioner Neil Dussard
1212489.1

